HHS/OIG, Audit - "Review of Inpatient Rehabilitation Facility Admissions
at Whittier Rehabilitation Hospital for Calendar Year 2003," (A-01-04-00531)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Inpatient Rehabilitation Facility Admissions
at Whittier Rehabilitation Hospital for Calendar Year 2003," (A-01-04-00531)
April 17, 2007
Complete
Text of Report is available in PDF format (1.97 mb). Copies can also be obtained by
contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether
Whittier
Rehabilitation Hospital (the Hospital)
submitted
inpatient rehabilitation
facility (IRF) claims that met Medicare requirements.
The Hospital submitted numerous IRF claims that did not meet Medicare
requirements.  For 47 of the 100 claims in our sample, an IRF was not the
appropriate setting for the beneficiaries.  Based on the sample results, we
estimate that Medicare overpaid the Hospital approximately $4.8 million for IRF
claims during 2003.
We recommend that
the Hospital refund to the Medicare program the $4.8
million estimated overpayment for 2003;
identify and
refund any overpayments for subsequent years IRF claims that did not meet
Medicare requirements; and strengthen its preadmission screening procedures to
provide reasonable assurance that beneficiaries who are admitted for IRF
services require treatment at the IRF level of care, are capable of significant
practical improvement, and are able to participate in intensive rehabilitation.
The Hospital strongly disagreed with our findings and recommendations.